Supreme Court, U.S.
FILED

APR 0 5 2021

*>- IS 10
No.

OFFICE OF THECLER1

In the
Supreme Court of the United States

Louis Tafuto, Petitioner,
v.
Donald J. Trump for President, et ah,
Respondents.

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

Louis Tafuto, Pro Se Petitioner
314 Route 94 South #86
Warwick, New York 10990
(845) 988-9524
tafuto845@gmail.com
April 1, 2021

ii

QUESTIONS PRESENTED
Supreme court rulings have dramatically limited the judiciability of vote dilution for
partisan gerrymandering since 2018. Gill v. Whitford, 138 S. Ct. 1916, 1929 (2018)
limited standing to only voters who had a diluted vote in a gerrymandered district
as opposed to those with statewide representational harms. One year later, Rucho v
Common Cause, 139 S. Ct. 2484, 204 L. Ed. 2d 931 (2019) ruled that partisan
gerrymandering through legislative redistricting was not judiciable even with a
district specific diluted vote.
In 2022 and 2024 tens of millions of registered voters will participate in
elections with the measurable disadvantage of a diluted vote. Politicians and
Political Action Committees will spend hundreds of millions of dollars making sure
those votes stay diluted and are leveraged to gain optimal power for their party.
With this model, as a country we will begin to see an increased number of minority
rule presidencies as we did in 2016.
A government where the minority political party is able to manipulate the
constitutional framework of our democracy to weaken the weight of the votes of the
majority party and retain Executive Branch power violates the equal protection and
free speech rights of the disadvantaged voters. As vote dilution schemes become
more prevalent, access to the courts for individual voters to challenge this conduct
becomes more difficult.
In 2016, the Petitioner brought before the Southern District Court of New York
(SDNY) a case against the defendants where he had a district specific diluted vote
caused by corrupt behavior of the presidential candidate and his campaign.
The SDNY ruled that the injury, despite being a diluted vote in a specific
electoral district (New York) in a federal election, was too widely by millions of other
voters to constitute standing. The 2nd Circuit Court of Appeals supported the
SDNYs ruling to dismiss on standing opining that standing in vote dilution
required that the vote dilution occur only at a state legislative district level.
Petitioner asserts that standing at the pleading stage should exist for voters in
a presidential election provided their vote was diluted within the state they voted.
Petitioner also asserts standing should exist when the conduct being challenged in
the complaint is not a derivative of a free and fair election outcome.
The questions presented are:
1. Is a diluted vote an injuryin-fact when Plaintiff is in a “packed” Electoral
College district (New York) in a U.S. federal election?

iii

2. Are the rights to standing in vote dilution cases limited to only state legislative

district levels?
3. Does the use of direct evidence, in the form of an admission, establish the
causation component of standing at the pleading stage of a complaint?

iv

PARTIES TO THE PROCEEDING AND RULE 29.6 STATEMENT
Petitioner Louis Tafuto was the plaintiff in the District Court and was the
plaintiff/appellant in the Court of Appeals. Petitioner has no parent corporation,
and no publicly held company owns 10% or more of their stock.
Respondents Donald J. Trump for President, Inc., Donald J. Trump, Michael R.
Pence, Reinhold Reince Preibus, Kellyanne Conway, and the Republican National
Committee were the defendants in the District Court and were the defendantsappellees in the Court of Appeals.
STATEMENT OF RELATED PROCEEDINGS
• Tafuto v. Donald J. Trump for President et.al., No. 19-2211 (2d Cir.) (opinion
issued and judgment entered January 5, 2021).
• Tafuto v. Donald J. Trump for President et. a, No. 16-cv8648 (S.D.N.Y.)
(opinion issued August 20, 2018).
Apart from the proceedings directly on review in this case, there are no other
directly related proceedings in any court.

V

TABLE OF CONTENTS
Questions Presented.
Parties to the Proceeding.

li

,iv

Rule 29.6 Statement.

,1V

Statement of Related Proceedings

,iv

Table of Authorities.

vi

Petition for Writ of Certiorari,

1

Opinions Below

1

Jurisdiction

1

Constitutional or Statutory Provisions Involved.

1

1.

Statement of the Case

2

2.

Reason for Granting the Petition.

6

CONCLUSION

11

APPENDIX
A. Opinion of Southern District of New York,

14

B. Opinion of 2nd Circuit Court of Appeals

18

C. Table of Contradictory Appellate Cases

22

vi

TABLE OF AUTHORITIES
Cases
Gill v. Whitford, 138 S. Ct. 1916, 1929 (2018)

1,9-12,34

Rucho v Common Cause, 139 S. Ct. 2484, 204 L. Ed. 2d 931 (2019)

.i,9,11,34

League of Women Voters ofMichigan v. Johnson, 352 F. Supp 3d. 777 (2018)...13,34
Davis v. Garcia, No. 07-cv-9897 (CLB), 2008 WL 2229811 (S.D.N.Y. May 27,
2008)......................................................................................................;...............

15

Fabela v. Socorro Independent SchoolDist, 329 F.3d 409, 415 (5th Cir.
2003)....................................................................................................................... 15,17,34
Constitution
U.S.C.A. Const. Amendment 1 and 5..................................................... ............... 1-2
U.S.C.A. Const. Art, 2 § 1 cl. 2-4................................................................................ 1,5
Federalist Paper 10.....................................................................................................
5
Federalist Paper 68.....................................................................................................
5
Draft of a Resolution for the Legislature of New York for the Amendment of the
Constitution of the United States, 29 January 1802................................................ 5
Statutes

28U.S.C. § 1291
28U.S.C. § 1331
28U.S.C. § 1367
42 USC § 1983
42 USC § 1985

1

PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to review the judgment of the
United States Court of Appeals for the Second Circuit.
OPINIONS BELOW
The opinion of the Court of Appeals has been published in the Federal Reporter
and can be found at 827 Fed.Appx. 112. The District Court’s opinion can be found at
2018 WL 8979593.
JURISDICTION
The Court of Appeals issued its judgment on January 5, 2021. This Court has
jurisdiction under 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section I of Article II of the United States Constitution provides in relevant
partEach State shall appoint, in such Manner as the Legislature thereof may
direct, a Number of Electors, equal to the whole Number of Senators and
Representatives to which the State may be entitled in the Congress; but no
Senator or Representative, or Person holding an Office of Trust or Profit
under the United States, shall be appointed an Elector.
The First Amendment of the United States Constitution provides in
relevant part:
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to assemble, and to petition
the Government for a redress of grievances.
The Fifth Amendment Due Process/Equal Protection Clause of the U.S
Constitution—provides in relevant part:
No person shall be deprived of life, liberty, or property, without due process
of law.

2

1. STATEMENT OF THE CASE
This case presents critically important issues about individual standing in
partisan gerrymandering that have split the lower courts on injuryhrfact and
causation specifically at the pleading stage as it related to vote dilution.
Injury-in-fact. The petitioner brings this case to the Supreme Court to clarify
standing at the pleading stage. The petitioner suffered a diluted vote in the 2016
election. During the 2016 election campaign the Second Amended Complaint (SAC)
established through media interviews by the defendants that they engaged in a
form of social media disinformation designed to suppress votes. (SAC Exhibit A, B:
and F) It was also acknowledged and establish by the defendants that they were
aware they could not win a popular vote victory in 2016 and therefore planned to
win without the will of the people and through the Electoral College. (SAC Exhibits
A and C). It is vital to acknowledge here that the Petitioner understands the
Electoral College is the only way to win an election, but the electoral college’s intent
was to protect democracy. Democracy is defined as a form of government where the
people have equal power to choose their elected leaders. A clear indication that a
government is not providing equal powers to its people is when political leaders are
able to implement a deceptive scheme that provides a minority of voters with more
voting power to elect a president than the majority of voters. This scheme enables
the defendants to have a poisoned possession of the votes from the election. The
Petitioner challenges that scheme carried out by the defendants as outlined in the
SAC.

3

Plaintiff as a registered voter in New York, understands this state played an
integral role in the ratification of the constitution and the Bill of Rights. No state
was more deeply divided than New York in the ratification process and there was
considerable doubt New York would ratify. The debate to ratify in New York was
the basis for the Federalist Papers. They were designed to assure the public that a
federal government was imperative to carry out effective foreign affairs but the
separation of powers would ensure little chance of a national government
transforming into a tyrannical power.1 Section 1 Article 2 of the United States
Constitution established the Electoral College on the notion that the choice of the
president should reflect the "sense of the people" rather than a "pre-established
body" such as Congress or the State legislatures, and would be independent of the
influence of "foreign powers".2 The framers designed the Electoral College to
encourage an election outcome that was the result of a "full and fair expression of
the public will" but maintain "as little opportunity as possible to tumult and
disorder".3
Petitioner argues the defendants in the 2016 election challenged the founders1
assurances in the Federalist Papers and asserts he should have standing to protect
his vote. In 2016, Defendants used a digital form of gerrymandering defined by the
digital dissemination of disinformation obscured from mainstream public discourse
that targeted key voters in predetermined districts in swing states to minimize the
1 Federalist #10
2 Federalist #68
3 Hamilton, Alexander. Draft of a Resolution for the Legislature of New York for the Amendment of the Constitution
of the United States, 29 January 1802, National Archives, Founders Online.

4

weight of “packed” democratic states. Defendants’ behavior leveraged the structure
of the electoral college and undermined the founders’ original intent. This strategy
has been researched in Nature Magazine (Second Amended Complaint, Exhibit D)
in 2012 and analyzed in Harvard Law Review in 2014 (Second Amended Complaint,
Exhibit E). These publications determined the scheme to be significantly effective in
deceptively manipulating voter behavior.
Defendant’s strategy operationalized the embedded voting weight inequities of
the Electoral College to dilute the 2016 Presidential election vote of the Petitioner
and others’ similar situated like him in the Democratically “packed” state of New
York.
On November 8, 2016, the defendant lost the popular vote by 2,868,686 votes
but won the election by 77 electoral votes. The statistical anomaly of this gap has
not occurred in the last 120 years of US voting.
Throughout October and December 2016, defendants gave numerous
interviews to the print media praising the success of their $90,000,000 election
campaign strategy built on a complex social media messaging algorithm that
distributed targeted disinformation to voters outside of public discourse with the
intent of suppressing votes and winning the 2016 election through the electoral
college but without the will of the voters. (SAC Exhibits A and B).
Petitioner challenged this scheme in the Southern District Court of New York
(SDNY) that resulted in his diluted vote. The first reason Petitioner was denied
standing was because his diluted vote occurred on a state level in a federal election

5

rather than a state legislative district level in a state election. The SDNY opined
that because the Petitioner shared a diluted vote with millions of voters in New
York state in the federal election it was a generalized grievance, the Second Circuit
Court of Appeals agreed, deciding that vote dilution injuries must occur on a state
legislative district level to have Article III standing.
Petitioner disagrees and asserts that a vote dilution injury occurring in a state
legislative district for a statewide election is proportionately equal to a vote dilution
injury occurring in a state as an electoral college district for a nationwide
presidential election. Petitioner contends his diluted vote in the presidential election
is concrete and particularized at the pleading stage.
Causation. The second clarification this Writ petitions the court for is the
standard for sufficiently alleging causation at the pleading stage, and whether
direct evidence of admission of the behavior and intent to cause a specific injury is
sufficient to defeat a FRCP Rule 12(b) Motion to Dismiss at the pleading level on
causation.
The Petitioner alleged in the SAC that defendants used of a form of digital
gerrymandering outlined in Nature Magazine and the Harvard Law Review to
dilute votes. (SAC Exhibits D and E). Petitioner alleged defendants admitted in
print media interviews between October 2016 and December 2016, that they used
social media to suppress votes through targeted messaging obscured from the
mainstream media because they knew the only way to win the election would be
through the electoral college and without the popular vote. (SAC Exhibits A, B, C.

6

and F) Petitioner believes these admissions by the defendants is strong enough to
survive a FRCP Rule 12(b) Motion to Dismiss at the pleading stage. Petitioner
argues the decision to dismiss the complaint specifically at the pleading stage due to
the admissions by the defendants is premature.

2. REASON FOR GRANTING THE PETITION (Lower Court Opposing Opinions)
Injurywin-fact Since 2018, the Supreme Court has made 2 landmark decisions
on injury-hvfact criteria for partisan vote dilution cases, Gill v. Whitford\ 138 S. Ct.
1916, 1929 (2018) and Rucho v. Common Cause, 139 S. Ct. 2484, 204 L. Ed. 2d 931
(2019). Simply put, Gill restricted standing to include voters in “cracked” or
“packed” districts where the vote was diluted. Gill denied standing to voters whose
votes were not diluted but suffered representational disenfranchisement. Rucho
barred standing for partisan gerrymandering cases resulting from state legislative
redistricting practices, defining legislative redistricting as non-judiciable because
the act of redistricting is a derivative of an election outcome.
Each of these decisions restricted standing for voters but also left pertinent
legal questions related to the basis of these restrictions on the table. In its decision
the Court itself asked the question- Is there “an appropriate role for the Federal
Judiciary in remedying the problem of partisan gerrymandering?”
The Petitioner argues this case provides the appropriate role for the Federal
Judiciary to remedy at least growing problem of partisan digital gerrymandering.
The Petitioner meets the very limited criteria for standing in a partisan

7

gerrymandering scenario. First, Petitioner has a diluted vote, an injury. Second,
that diluted vote is specific to the fact that it was cast in the electoral college district
of New York against a presidential candidate that won the election but lost the
popular vote in a federal election. Third, it was caused by corrupt campaign
behavior designed to dilute votes prior to the election which provides a direct
pathway to resolve by declaring the conduct unconstitutional. This criterion fits
within the very narrow criteria specifically identified in Gill and Rucho.
The Federal Judiciary continues to have a role to resolve partisan
gerrymandering when the there is a diluted vote and the mechanism of the
gerrymandering is conducted by campaign candidates through clandestine digital
disinformation activities.
The Petitioner asserts his challenge to the defendants meets the inclusion
criteria under the intent of Gill while avoiding the exclusion criteria under Gill and
Rucho, Petitioner has a diluted vote. Petitioner lived in a democratically “packed”
Electoral College district (New York) and the actions causing the dilution were the
result of campaign behavior rather than an election outcome.
Moreover this case is important for the Supreme Court to hear because lower
court decisions on concrete and particularized injuries in gerrymandering come from
2 opposing vantage points.
The 2nd Circuit Court of Appeals’ ruling against the Petitioner rested its denial
on the belief that the Gill ruling required the Petitioner’s injury to originate
specifically from a state legislative district in order to have any standing. The 2nd

8

Circuit Court opined that “[T]he Court specifically declined to extend its holding
beyond the legislative district level, reasoning that the dilution of plaintiffs' votes
was ‘district specific’ and that ‘[a] plaintiff who complains of gerrymandering, but
who does not live in a gerrymandered district, asserts only a generalized grievance
against governmental conduct of which he or she does not approve.’ Id at 1930. Gill\
therefore, does not support Tafuto's assertion of a concrete and particularized
injury.” Tafuto v. Donald J. Trump for President Inc., 19*2211, 4 (2d Cir. Sep. 21
2020). The 2nd Circuit Court in its ruling did not contemplate the issue of a state
specific diluted vote in a federal election and whether it is proportionately equal to a
district specific diluted vote in a state election.
The 6th Circuit Court of Appeals in League of Women Voters ofMichigan v.
Johnson, 352 F. Supp 3d. 777 (2018) saw vote dilution as an injury different than
the 2nd Circuit when it rested its decision on standing for gerrymandering on the
occurrence of the injury, a diluted vote. “Individuals must show disadvantage to
themselves as individuals to establish standing to allege a political gerrymandering
claim based on vote dilution.” League of Women Voters of Michigan v. Johnson. 352
F. Supp. 3d 777 (E.D. Mich. 2018), rev’d and remanded. No. 18*2383, 2018 WL
10096237 (6th Cir. Dec. 20, 2018)
The anomaly of a successful minority rule scheme in the 2016 presidential
election resulted in a new pathway to gerrymandering and, due to the number of
votes in a federal election, potentially dilute millions of votes. It is important for the

9

Supreme Court to specifically define the criteria for standing in vote dilution cases
arising out of partisan gerrymandering in Presidential elections.

Causation. Lower court rulings are contradictory in nature on causation that relate
to Petitioner’s complaint, the use of direct evidence to establish causation may
suffice to establish standing at the pleading stage.
The Petitioner’s SAC offers up the following specific admissions to support
causation from the defendants through Exhibits- “ ‘We have three major voter
suppression operations under way,’ says a senior official.” SAC Exhibit Bi "T called
somebody who works for one of the technology companies that I work with, and I
had them give me a tutorial on how to use Facebook micro'targeting,’ Kushner
says.... The campaign was sending more than 100,000 uniquely tweaked ads to
targeted voters each day.... For those who can't understand how Hillary Clinton
could win the popular vote by at least 2 million yet lose handily in the electoral
college, perhaps this provides some clarity. If the campaign’s overarching sentiment
was fear and anger, the deciding factor at the end was data and entrepreneurship.”
SAC Exhibit A. The 2nd Circuit Court of Appeals acknowledged Petitioner alleged
direct evidence of intent to digital gerrymander by the defendants through
admissions made in October 2016 - December 2016 media interviews- “Tafuto
asserts that Trump’s 2016 campaign insiders have effectively admitted in media
interviews that the strategies that Tafuto here challenges resulted in Trump's
victory. But the district court correctly cited Davis v Garcia, No. 07-cv9897

10

(CLB), 2008 WL 2229811 (S.D.N.Y. May 27, 2008), to find that Tafuto does not
allege sufficient non-conclusory facts to establish causation.” Tafuto v. Donald J
Trump for President Inc., 19-2211, 4-5 (2d Cir. Sep. 21, 2020). Plaintiff argues the
admissions by the defendant are sufficient conclusionary facts to support causation
specifically at the pleading stage and a rule 12b dismissal would be premature.
The 5th Circuit court of Appeals explains that direct evidence in the form of
an admission can be sufficient to support causation at the pleading stage. Fabela v.
Socorro Independent School Dist, 329 F.3d 409, 415 (5th Cir. 2003) (“"direct
evidence" cases, once the plaintiff has submitted evidence that retaliation was
among the motives which prompted the adverse action, the "burden of proof shifts
to the employer to establish by preponderance of evidence that the same decision
would have been made regardless of the forbidden factor." Id. at 192 (quoting,
Brown v. E. Miss. Elec. Power Ass’n, 989 F,2d 858. 861 (5th Cir. 1993)) (internal
quotation marks omitted). The case at bar presents such a circumstance. This Court
has defined "direct evidence" as evidence which, "if believed, proves the fact [in
question] without inference or presumption." Portis, 34 F,3d at 328-29 ( quoting
Brown, 989 F.2d at 861). In a Title VII context, direct evidence includes any
statement or document which shows on its face that an improper criterion served as
a basis — not necessarily the sole basis, but a basis — for the adverse employment
action. Fierros, 274 F.3d at 192; see also Portis, 34 F.3d at 328-29. ”).

11

In Petitioner’s case, the SDNY and 2nd Circuit Court of Appeals courts
acknowledged defendants’ admissions to the intent to suppress and dilute votes in
the 2016 election. The defendants’ admissions included the pronouncement that
their targeted digital campaign was the reason for the 2016 minority rule
Presidential victory. The 2016 results diluted votes in democratically “packed”
states who voted for Hillary Clinton and won within their state. Petitioner voted for
Hillary Clinton in New York and had a diluted vote in the 2016 election.
The 2nd Circuit Court and SDNY did not however opine on the fact that such an
admission can be considered as direct evidence and sufficient to meet the criteria for
standing at the pleading stage. This ruling is in opposition to the ruling from the 5th
Circuit in Fabela. Petitioner asks the court to resolve the conflict in ruling between
the 2nd Circuit ruling in Petitioner’s case with the 5th Circuit ruling in Fabela.
CONCLUSION
Early in the primary election of 2015, the defendants corruptly paid an
operative to “fix” an online election poll by the Drudge Report to deceive potential
voters into believing the people supported him for president.4 During the general
election defendants engaged in a massive social media disinformation campaign
using campaign polling data designed to suppress and dilute votes. (SAC Exhibit A
and B). In the Summer of 2016, the defendants’ Campaign Manager briefed a

4 Disloyal: A Memoir: The True Story to the Former Personal Attorney to Donald J. Trump. Skyhorse Publishing.
2020

12

Russian operative on sensitive campaign polling data.5 Over the course of the 2016
general election the defendant lied over 400 times. (SAC H 166). In December 2018,
defendant, Donald J. Trump was named in a charging document by the Southern
District of New York as “Individual 1” for committing federal campaign fraud in the
2016 election.
All of the aforementioned actions led to the minority rule victory of the
defendant, Donald J. Trump in the 2016 election that diluted the Petitioner’s vote.
Presently, the defendant Donald J. Trump has made 30,573 false or misleading
claims since his election, the bulk of them spiking in during the 2020 election.6 His
lies inspired the attack on the capital on January 6, 2021 to stop the certification of
the electoral college by the members of the House of Representatives.7
Any potential accountability of the defendants has met political opposition and
has been obstructed by the defendants themselves.8
If a candidate can commit all these acts without accountability and become
president with a minority of votes, at the very least the Petitioner should have
standing at the pleading stage to challenge the effect this corrupt behavior had on
the weight of his vote in that election.

5 Select Committee on Intelligence United States Senate on Russian Active Measures Campaigns and Interference
in the 2016 Election. Vol. 5. Pg. 28
6 https://www.washingtonpost.com/graphics/politics/trump-claims-database/?itid=lk_readmore_manuai_9
7 https://www.nytimes.com/2021/03/10/us/politics/stewart-rhodes-oath-keepers-capitol-riot.html
8 Report on the Investigation into Interference in the 2016 Presidential Election Vol. 2. Pages 15-158.

13
For all the aforementioned reasons in this writ, the Petition for a Writ of
Certiorari should be granted.
Resgfectfully submitted.

t
Louis Tafuto, Petitioner
314 Route 94 South #86
Warwick, NY 10990
April 1, 2021

14

APPENDIX A

2018 WL 3979593
Only the Westlaw citation is currently available.
United States District Court, S.D. New York.
Louis TAFUTO, Plaintiff,
v.
Donald J. TRUMP FOR PRESIDENT, et al., Defendants.
*

* . No. 16CV8648-LTS-DCF
Signed 08/20/2018

Attorneys and Law Firms
Louis Tafuto, Warwick, NY, pro se.
Lawrence S. Rosen. Patrick Thomas McPartland, Larocca Homik Rosen Greenberg & Blaha LLP,
New York, NY, for Defendants.
MEMORANDUM OPINION AND ORDER
LAURATAYLOR SWAIN. United States District Judge
*1 Plaintiff Louis Tafuto brings this action pro se pursuant to 42 U.S.C. § 1983. 42 U.S.C. § 1985.
and Bivens v. Six Unknown Fed. Narcotics Agents, 403 U.S. 388 (1971). alleging violations of his
rights under the United States Constitution. Plaintiff also asserts a claim for violation of section
6201.1 of the New York Fair Campaign Code. The Court has jurisdiction of this matter pursuant
to 28 U.S.C. § 1331. On October 2, 2017, Plaintiff filed the operative Second Amended Complaint.
(Docket entry no. 41 (the "SAC”)). Defendants now move to dismiss the SAC pursuant to Federal
Rules of Civil Procedure 12(bl(1). 12(b)(5). and 12(bH6T (Docket entry no. 46.) The Court has
considered carefully the parties' submissions and, for the following reasons, Defendants' motion to
dismiss is granted.
BACKGROUND
The following recitation of facts is drawn from the SAC, the well-pleaded factual content of which is
taken as true for purposes of this motion.
Plaintiff is a personal management consultant and a member of the Republican Party. (SAC HH 16,
18.) Plaintiff voted in the November 2016 presidential election against Defendant Donald
J. Trump and intends to vote in the 2018 and 2020 elections. (SAC ffll 24, 25.) Plaintiff alleges that
Defendants conspired to “deny Plaintiff his right to an undiluted vote” by, among other things,
unconstitutionally manipulating the primary election process and the electoral college, violating the
election laws and constitutions of each of the fifty states, spreading Russian-generated
disinformation and falsehoods, and obstructing facts critical to voter knowledge. (SAC HU 36, 39,46,

15
50, 54,57.) Specifically, the SAC alleges that Defendants utilized false campaign messaging to “gain
poisoned possession of general election voters and dilute the Plaintiffs vote through dividing
Democrats, Independents, and Trump opponents, and suppressing Democratic voters.” (SAC TJ
65; see also SAC HIT 64-69.149-191,274.) Plaintiff alleges that Defendants’ actions constituted a
“digital partisan gerrymandering scheme designed to dilute the vote of the [PJIaintiff on his political
ideologies and region so that his vote could not be aggregated and was not weighed in a fair and
equitable manner.” (SAC 59.) The SAC also alleges that Defendants' actions constituted “political
espionage” for the purposes of New York Fair Campaign Code § 6201.1(a), and that Defendants
also violated section 6201.1 when they “cooperated, colluded, and conspired with [ ] Russia to
commit espionage; when they devised and engaged in political practices and strategies intended to
subvert and undermine the electoral process; when they deliberately misrepresented polling data;
[and] when they devised and engaged in political strategies intended to hinder the value of the vote
of [their] opponents.” (SAC ffi[ 392-396.)
As a result of Defendants’ actions, Plaintiff alleges that his vote was “not afforded equal protection,”
and that the dilution of his vote is a “loss of his equal protection and free speech rights.” (SAC 26.)
Plaintiff also alleges that he has “been disenfranchised from his social connection to the Republican
Party,” that he has “suffered ongoing personal discord among Trump supporters among his family
and friends,” and that he has “suffered professionally in his business because his immigrant clients
[sic] progress slowed due to personal issues resulting from fear.” (SAC U 26; see also SAC at 9899.) Plaintiff seeks declaratory and injunctive relief that would, among other things, “declare the
intended purpose, process and methods of the [Defendants” unconstitutional, “declare the Election
Results of 2016 unconstitutional,” order Defendants to “issue a retraction of ail lies propagated and
disseminated during the [2016] and 2020 election campaign,” and enjoin Defendants from
“communicating and distributing repeated and proven falsehoods.” (SAC at 100.)
DISCUSSION
*2 Defendants move to dismiss the SAC pursuant to Federal Ruie of Civil Procedure 12(b)(1). for
lack of subject matter jurisdiction, Rule 12(b)(5). for insufficient service of process, and Rule
12(b)(6). for failure to state a claim upon which relief can be granted. On a motion pursuant
to Federal Ruie of Civil Procedure 12(b)(1). an action must be dismissed for lack of subject matter
jurisdiction if the district court lacks the statutory or constitutional power to adjudicate the
case. Makarova v. United States, 201 F.3d 110,113 (2d Cir. 2000). Where, as here, a party also
seeks dismissal on Rule 12(b)(6) and 12(b)(5) grounds, the Court must consider the Rule
12(b)(1) motion first. Witt v. Village of Mamaroneck, 992 F. Supp. 2d 350, 357 (S.D.N.Y. 2014). In
resolving Defendants' motion, the Court is mindful that it must “liberally construe pleadings and briefs
submitted by pro se litigants, reading such submissions to raise the strongest arguments they
suggest.” Bertin v. United States. 478 F.3d 489, 491 (2d Cir. 2007) (internal quotation marks and
citations omitted).
“A plaintiff asserting subject matter jurisdiction has the burden of proving by a preponderance of the
evidence that it exists.” Makarova. 201 F.3d at 113. To meet his burden, a plaintiff must demonstrate
that he has standing to assert his claims, such that the matter presents a case or controversy within
the meaning of Article III of the Constitution. Clapper v. Amnesty Int’l USA. 568 U.S. 398. 408-409
(2013). To establish Article III standing, a plaintiff must have (1) suffered an injury in fact, (2) that is
fairly traceable to the challenged conduct of the defendant, and (3) that is likely to be redressed by a
favorable judicial decision. Spokeo, Inc, v. Robins, 136 S. Ct. 1540,1547 (2016). Defendants argue
that Plaintiff lacks standing to bring this action because he has not suffered a concrete and

16
particularized injury in fact, and because any alleged injury is too speculative to be fairly traceable to
Defendants' challenged conduct. The Court agrees.
To establish injury in fact, a plaintiff must show that he or she suffered “an invasion of a legally
protected interest" that is “concrete and particularized” and “actual or imminent, not conjectural or
hypothetical.” Spokeo. 136 S. Ct. at 1548. To allege a “concrete and particularized” injury, a plaintiff
must show that he “personally has suffered some actual or threatened injury as a result of the
putatively illegal conduct of the defendant.” Valley Forge Christian Coil, v. Americans United for
Separation of Church & State. Inc., 454 U.S. 464. 472 (1982): accord Lujan v. Defenders of Wildlife.
504 U.S. 555, 561 n.1 (“By particularized, we mean that the injury must affect the plaintiff in a
personal and individual way.”). Accordingly, an injury that plaintiff “suffers in some indefinite way in
common with people generally" will not suffice. DaimlerChrvsIerCorp. v. Cuno, 547 U.S. 332. 344
(2006); Luian. 504 U.S. at 573-74 (“[Aj plaintiff raising only a generally available grievance about
government—claiming only harm to his and every citizen’s interest in proper application of the
Constitution and laws, and seeking relief that no more directly and tangibly benefits him than it does
the public at large—does not state an Article III case or controversy.”).
Here, Plaintiff contends that he has standing based on the alleged dilution of his vote as a result of
Defendants' actions. (SAC 26; see also SAC at 98-99.) Plaintiffs claims, however, are premised
solely on his status as a citizen and registered voter, and his alleged injury is one that is shared by
many other voters. As the SAC acknowledges, at a minimum, Plaintiff shares his alleged injury with
every other Republican resident of New York who voted against Defendant Donald J. Trump.
(See SAC fflj 5-9 (alleging that Plaintiffs voting power was diluted “as a Republican opposed
to Trump and resident of New York”).) Plaintiffs generalized grievance is insufficient to give rise to
Article III standing. See Crist v. Commission on Presidential Debates. 262 F.3d 193,194 (2d Cir.
2001) (“[A] voter fails to present an injury-in-fact when the alleged harm is abstract and widely
shared....”); Collins v. Merrill, 2016 WL 7176651. at *2 (S.D.N.Y. Dec. 7, 2016) (finding that voter
lacked standing to challenge certification of the Electoral College vote where her complaint was
“premised entirely on alleged injuries that [pjlaintiff shares with the general voting population.”).
*3 Moreover, given the “endless number of diverse factors potentially contributing to the outcome of
... elections,” Plaintiff has not plausibly alleged that Defendants' actions resulted in the dilution of his
vote. Davis v. Garcia. 2008 WL 2229811. at *5 (S.D.N.Y. May 27. 2008) (internal quotation marks
omitted). Although it is possible based on the allegations in the SAC that the Defendants' conduct
had some impact on the outcome of the 2016 election, it is equally plausible, after drawing all
favorable inferences, that Plaintiffs vote was unaffected by Defendants' challenged conduct.
Because the SAC does not allege sufficient non-conclusory facts to suggest plausibly that
Defendants' alleged actions had an impact on Plaintiffs vote, Plaintiff has failed to demonstrate that
he has standing to bring this action.
In light of the Court’s conclusion that the Court lacks subject matter jurisdiction of Plaintiffs claims,
the Court need not address Defendants' remaining arguments for dismissal.
CONCLUSION
For the foregoing reasons, Defendants' motion to dismiss the Second Amended Complaint is
granted in its entirety. The Clerk of Court is requested to enter judgment dismissing the Second
Amended Complaint for lack of subject matter jurisdiction and to close this case. This Memorandum
Opinion and Order resolves docket entry no. 46.
SO ORDERED.

17

All Citations
Not Reported in Fed. Supp., 2018 WL 3979593

18
APPENDIX B

827 FedAppx. 112

This case was not selected for publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH THIS COURT,
A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION "SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.

Louis TAFUTO, Plaintiff-Appellant,
v.
DONALD J. TRUMP FOR PRESIDENT INC., Republican National Committee, RNC,
Reinhold Richard Priebus, aka Reince Priebus, Donald John Trump. Kellyanne
Conway, Michael Richard Pence, Defendants-Appellees,
Michael Richard Pence, Defendant.
19-2211
September 21, 2020
Synopsis
Background: Voter brought action against successful Republican presidential and vice presidential
candidates, the Republican National Committee, and related defendants, alleging violations of the
First, Fifth, and Fourteenth Amendments and New York law governing fair campaigns, based on
defendants' alleged conduct in engaging in “digital gerrymandering” by knowingly spreading
Russian-backed disinformation in Democratic strongholds and swing states during campaign. The
United States District Court for the Southern District of New York, Laura Taylor Swain. J., 2018 WL
3979593. dismissed suit for lack of standing and denied voter's motion for reconsideration. Voter
appealed.
Holdings: The Court of Appeals held that:
1 voter failed to establish injury-in-fact required for standing, and
2 voter failed to establish causation required for standing.
Affirmed.
Voter's assertions that successful Republican presidential and vice presidential candidates, the
Republican National Committee, and other defendants engaged in “digital gerrymandering”
campaign that diluted anti-candidate votes and resulted in his vote not carrying equal weight to that

19
of other citizen's voting in same election was not concrete and particularized injury required for
cognizable injury-in-fact, and thus voter lacked standing to challenge alleged conduct as violating the
First, Fifth, and Fourteenth Amendments and New York law governing fair campaigns; asserted
injury was generalized and widely shared by millions of voters. U.S. Const. Amends. 1.5,14.
Voter failed to establish causal connection between alleged injury from dilution of his vote and
alleged conduct of successful Republican presidential and vice presidential candidates, the
Republican National Committee, and other defendants, in engaging in “digital gerrymandering”
campaign of spreading disinformation in Democratic strongholds and swing states, and thus voter
lacked standing to challenge alleged conduct as violating the First, Fifth, and Fourteenth
Amendments and New York law governing fair campaigns, though voter asserted that presidential
campaign insiders effectively admitted that challenged strategies resulted in candidate's victory;
numerous factors could influence election outcomes. U.S. Const. Amends. 1.5,14.
*113 Appeal from a judgment of the United States District Court for the Southern District of New
York (Swain, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.

Attorneys and Law Firms
FOR PLAINTIFF-APPELLANT: Louis Tafuto, pro se, Warwick, NY.
FOR DEFENDANTS-APPELLEES: Lawrence S. Rosen. Patrick McPartland. Jared E. Blumetti.
LaRocca Homik Rosen & Greenberg LLP, New York, NY.
PRESENT: ROBERT D. SACK. ROBERTA. KATZMANN. RICHARD C. WESLEY. Circuit Judges.
*114 SUMMARY ORDER
Appellant Louis Tafuto, pro se, sues Donald J. Trump for President, Inc., Donald Trump, Reinhold
Richard (“Reince”) Priebus, the Republican National Committee, Michael Pence, and Kellyanne
Conway under 42 U.S.C. SS 1983 and 1985 and Bivens v. Six Unknown Named Agents of Federal
Bureau of Narcotics, 403 U.S. 388, 91 S.Ct. 1999, 29 L.Ed.2d 619 (1971), alleging violations of the
First, Fifth, and Fourteenth Amendments and the New York Fair Campaign Code. He alleges that
the defendants engaged in a “digital gerrymandering” campaign to “dilute" anti-Trump votes by
knowingly spreading Russian-backed disinformation in Democratic strongholds and swing states
during the 2016 presidential election.
The district court dismissed the suit for lack of standing, ruling that Tafuto's injury was too
generalized and that he had not established causation between the Trump campaign's alleged
actions and the election result. The district court then denied Tafuto's Federal Rule of Civil
Procedure 59(e) motion for reconsideration. This appeal followed.
We review the district court's dismissal of a complaint for lack of standing de novo. Cortlandt St.
Recovery Corp. v. Hellas Telecomms. S.A.R.L., 790 F.3d411,417 (2d Cir. 2015). At the pleading
stage, we “accept as true all material allegations of the complaint, and construe the complaint in
favor of the complaining party.” Pennell v. City of San Jose, 485 U.S. 1. 7,108 S.Ct. 849, 99 L.Ed.2d
1 (1988V1 We review the denial of a Rule 59(e) motion for abuse of discretion.2 Munafo v. Metro.
Transp. Auth., 381 F.3d 99. 105 (2d Cir. 2004V

20
To establish standing, a plaintiff must demonstrate, first, an injury in fact—“an invasion of a legally
protected interest which is (a) concrete and particularized, and (b) actual or imminent, not
conjectural or hypothetical”; second, “a causal connection between the injury and the conduct [he]
complain[s] of; and third, that it is “likely, as opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Lujan v. Defenders of Wildlife. 504 U.S. 555. 560-61.112 S.Ct.
2130. 119 LEd.2d 351 (1992).
JAfter careful review of the briefs and record on appeal, we find that the district court properly held
that Tafuto does not assert an injury in fact that is concrete and particularized. “For an injury to be
particularized, it must affect the plaintiff in a personal and individual way.” Spokeo, Inc. v. Robins. —
-U.S.
, 136 S. Ct. 1540,1548,194 L.Ed.2d 635 (2016). In contrast, “when the asserted harm is
a generalized grievance shared in substantially equal measure by all or a large class of citizens, that
harm alone normally does not warrant exercise of jurisdiction.” Warth v. Seldin, 422 U.S. 490.499.
95 S.Ct. 2197, 45 LEd.2d 343 (1975): see also Crist v. Comm’n on Presidential Debates, 262 F.3d
193. 195 (2d Cir. 2001) (“[A] voter fails to present an injury-in-fact when the alleged harm is abstract
and widely shared...."). Here, Tafuto asserts that defendants’ digital gerrymandering
campaign *115 diluted anti-Trump votes and resulted in his vote “not carrying] equal weight to that
of other citizens voting in the same election.” But these allegations assert an injury that was
generalized and widely shared by millions of voters. The district court therefore did not err in
determining that Tafuto did not suffer a cognizable injury-in-fact.
Tafuto further argues that Gill v. Whitford, — U.S.
. 138 S. Ct. 1916. 201 L.Ed.2d 313 (2018).
supports his argument that he properly alleged standing. But Gill is inapposite. Gill held that partisan
gerrymandering can constitute a cognizable injury for standing purposes when the plaintiff lives in a
gerrymandered legislative district, but the Court specifically declined to extend its holding beyond the
legislative district level, reasoning that the dilution of plaintiffs’ votes was “district specific” and that
“[a] plaintiff who complains of gerrymandering, but who does not live in a gerrymandered district,
asserts only a generalized grievance against governmental conduct of which he or she does not
approve.” Id. at 1930. Gill, therefore, does not support Tafuto's assertion of a concrete and
particularized injury.
2As to causation, we also hold that the district court properly concluded that Tafuto does not allege
an injury that is fairly traceable to the defendants' challenged conduct. Lujan, 504 U.S. at 560,112
S.Ct, 2130. Tafuto asserts that Trump's 2016 campaign insiders have effectively admitted in media
interviews that the strategies that Tafuto here challenges resulted in Trump's victory. But the district
court correctly cited Davis v. Garcia. No. 07-cv-9897 (CLB). 2008 WL 2229811 (S.D.N.Y. May 27.
2008). to find that Tafuto does not allege sufficient non-conclusory facts to establish causation.
In Davis, an African American incumbent candidate who had lost reelection claimed that the
defendants, county and federal officials and agencies, diluted the votes of minority voters by
conducting a “widely publicized, racially motivated” raid of two city administrative offices shortly
before the election. Id. at *3. The court rejected the voter dilution argument, reasoning that “[tjhe
endless number of diverse factors potentially contributing to the outcome of elections forecloses any
reliable conclusion that voter support of a candidate is fairly traceable to any particular event,” and
that it “would have to accept a number of very speculative inferences and assumptions” to find
causation between the defendants’ conduct and the plaintiffs election loss. Id. at *5. Here, the
district court properly relied on Davis for the truism that numerous factors can influence election
outcomes—factors that undercut Tafuto’s causation argument.
We further hold that the district court did not abuse its discretion in denying Tafuto's Rule
59(e) motion. For substantially the same reasons as above, Tafuto cannot demonstrate that the

21
district court overlooked controlling decisions or facts. We have also reviewed the remainder
of Tafuto's arguments and find them to be without merit. For the foregoing reasons, we AFFIRM the
judgment of the district court.
All Citations
827 Fed.Appx. 112

Footnotes
1
Unless otherwise indicated, in quoting cases, all internal quotation marks, alterations, emphases,
footnotes, and citations are omitted.
2
Tafuto's notice of appeal refers only to the denial of his Rule 59(e) motion. However, we construe
pro se notices of appeal liberally, taking the parties’ intentions into account.” Shrader v. CSX
Transp., Inc.. 70 F.3d 255. 256 (2d Cir. 1995). Because Tafuto's brief on appeal addresses both the
dismissal order and the denial of the Rule 59(e) motion, and because his notice of appeal is timely
as to both, see Fed. R. Add. P. 4(a)(4Kiv); Fed. R. Civ. P. 59(e). we evaluate each of these
decisions.

22

APPENDIX C
Circuit Court
Year

Case

Standing Criteria
Conflict

Contradictory Rulings

2nd Circuit
2021

Tafuto v. Trump

Injury-in-Fact

6th Circuit
2018

League of Women's
Voters of Michigan
v. Johnson

Injury-in-Fact

ft[T]he Court specifically
declined to extend its holding
beyond the legislative
district level”
“Individuals must show
disadvantage to themselves
as individuals to establish
standing to allege a political
gerrymandering claim based
on vote dilution.”

2nd Circuit
2021

Tafuto v. Trump

Causation

5th Circuit
2003

Fabela v. Socorro
Independent School
District

Causation

“Tafuto asserts that Trump’s
2016 campaign insiders have
effectively admitted in media
interviews that the
strategies that Tafuto here
challenges resulted in
Trump's victory. But the
district court correctly
cited Davis... to find that
Tafuto does not allege
sufficient non-conclusory
facts to establish causation.”
“[Djirect evidence includes
any statement or document
which shows on its face that
an improper criterion served
as a basis — not necessarily
the sole basis, but a basis —
for the adverse employment
action.”

Case 19-2211, Document 99, 01/05/2021, 3006083, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
5th day of January, two thousand twenty-one.

Louis Tafuto,
Plaintiff - Appellant,
ORDER
Docket No: 19-2211

v.
Donald J. Trump For President Inc., Republican National
Committee, RNC, Reinhold Richard Priebus, AKA
Reince Priebus, Donald John Trump, Kellyanne Conway,
Michael Richard Pence,
Defendants - Appellees,

Michael Richard Pence,
Defendant.

Appellant, Louis Tafuto, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

